         Audit Report




Spouses Eligible for Higher
   Retirement Benefits




   A-09-12-21292 | March 2014
MEMORANDUM


Date:      March 11, 2014                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration had adequate controls to identify and notify
           spousal beneficiaries who may have been eligible for higher retirement benefits based on
           their own earnings.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Spouses Eligible for Higher Retirement Benefits
A-09-12-21292

March 2014                                                                  Office of Audit Report Summary

Objective                                  Our Findings

To determine whether the Social            SSA has not taken action to notify spousal beneficiaries of their
Security Administration (SSA) had          eligibility to receive higher retirement benefits. Based on our
adequate controls to identify and notify   random sample, we estimate that 26,033 spouses were eligible for
spousal beneficiaries who may have         about $195.3 million in higher retirement benefits.
been eligible for higher retirement
benefits based on their own earnings.      This occurred because SSA did not (1) identify and notify spouses
                                           when they became eligible for higher retirement benefits at age
Background                                 70 or older and (2) apply the deemed filing provision or was
                                           unaware of the spouses’ eligibility for retirement benefits when
Individuals receiving spousal benefits     they applied for spousal benefits.
may have sufficient earnings to be
eligible for higher retirement benefits    Although SSA sends notices to widow(er)s who may be eligible for
based on their own earnings. Their         higher retirement benefits at FRA and age 70, it does not provide
retirement benefits may be further         notices to spouses who may be eligible for higher retirement
increased for any month in which they      benefits based on their own earnings.
did not receive a monthly benefit after
full retirement age (FRA).                 In response to our 2008 audit, SSA formed a workgroup, identified
                                           a population of 18,768 spouses eligible for higher retirement
Individuals who file an application for    benefits, and developed a notification letter. However, according
reduced retirement or spousal benefits     to SSA, it did not take further action because of limited resources.
must also file for the other benefit if
they are eligible for both benefits in     Our Recommendations
their first month of entitlement. This
requirement is referred to as the          We recommend that SSA:
deemed filing provision. If SSA
                                           1. Identify and notify spousal beneficiaries of their eligibility to
subsequently becomes aware that a
                                              receive higher retirement benefits at age 70.
spouse receiving reduced benefits was
eligible for retirement benefits when      2. Evaluate the feasibility of automating benefit increases for
he/she filed, it must establish               spouses eligible for higher retirement benefits at age 70.
entitlement to retirement benefits
beginning with the first month of          3. Remind employees to (1) apply the deemed filing provision
entitlement to reduced spousal                when individuals apply for reduced retirement or spousal
benefits.                                     benefits and are eligible for both benefits in their first month of
                                              entitlement and (2) review and develop lag earnings for spousal
In a 2008 audit, we found that spouses        beneficiaries if eligibility for retirement benefits is dependent
did not always receive the higher             upon those earnings.
retirement benefits due them. We
estimated that 13,580 spouses were         SSA agreed with our recommendations.
eligible for $123.7 million in higher
retirement benefits after they attained
age 70.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Spouses Eligible for Higher Retirement Benefits ......................................................................2
           SSA Did Not Notify Spouses at Age 70 ..............................................................................3
           SSA Did Not Apply the Deemed Filing Provision ..............................................................4
Conclusions ......................................................................................................................................5
Recommendations ............................................................................................................................5
Agency Comments ...........................................................................................................................6
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)
ABBREVIATIONS
DRC                  Delayed Retirement Credit

FRA                  Full Retirement Age

MBR                  Master Beneficiary Record

MEF                  Master Earnings File

OASDI                Old-Age, Survivors and Disability Insurance

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SSA                  Social Security Administration

U.S.C.               United States Code




Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) had adequate
controls to identify and notify spousal beneficiaries who may have been eligible for higher
retirement benefits based on their own earnings.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program under
Title II of the Social Security Act. The OASDI program provides monthly benefits to retired
and disabled workers, including their dependents and survivors. 1 To be entitled to retirement
benefits, the claimant must be fully insured, have attained age 62, and have filed an application
for benefits. 2

Individuals receiving spousal benefits may have sufficient earnings to be eligible for higher
retirement benefits based on their own earnings. 3 Their retirement benefits may be further
increased for any month in which they did not receive a monthly benefit after full retirement age
(FRA). The amount of the increase, referred to as a delayed retirement credit (DRC), depends on
the number of months an individual was at FRA or older and eligible for, but did not receive,
retirement benefits. A DRC can be earned for each month beginning at FRA up to age 70. 4

Individuals who file an application for reduced retirement benefits or reduced spousal benefits
must also file for the other benefit if they are eligible for both benefits in their first month
of entitlement. This requirement is referred to as the “deemed filing provision.” If SSA
subsequently becomes aware that a spouse receiving reduced benefits was eligible for retirement
benefits when he/she filed, it must establish entitlement to retirement benefits beginning with the
first month of entitlement to reduced spousal benefits. 5

SSA annually performs the Widow(er)’s Insurance Benefits/Retirement Insurance Benefits
operation to identify and notify widow(er)s who are eligible for higher retirement benefits. Most
widow(er)s receive two notices—one when they attain FRA and a second when they attain
age 70. However, SSA does not send similar notices to spouses who may be eligible for higher
retirement benefits based on their own earnings.




1
    The Social Security Act, § 201 et seq., 42 U.S.C. § 401 et seq.
2
    The Social Security Act, §202 (a), 42 U.S.C. § 402 (a).
3
    The Social Security Act, §202 et seq., 42 U.S.C. § 402 et seq.
4
 The Social Security Act, §202 (w), 42 U.S.C. § 402 (w). See also SSA, POMS, RS 00615.690.A
(December 5, 2008).
5
 The Social Security Act, §202 (r), 42 U.S.C. § 402 (r). See also SSA, POMS, GN 00204.004.A
(February 13, 2012), GN 00204.020.F (May 1, 2013), and RS 00615.020 (April 13, 2011).



Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                                     1
In a 2008 audit, 6 we found that spouses did not always receive the higher retirement benefits due
them. We estimated that 13,580 spouses were eligible for $123.7 million in higher retirement
benefits after they attained age 70. In response to our audit, SSA stated it would notify spousal
beneficiaries of their eligibility to receive higher retirement benefits at age 70.

For our current audit, we identified 83,436 spousal beneficiaries aged 70 or older who may have
been eligible for higher retirement benefits. From this population, we selected a random sample
of 250 beneficiaries for review (see Appendix A).

RESULTS OF REVIEW
SSA had not taken action to notify spousal beneficiaries of their eligibility to receive higher
retirement benefits. Based on our random sample, we estimate that 26,033 spouses were eligible
for $195.3 million in higher retirement benefits. This consisted of

     12,349 spouses from our current audit who were eligible for $59.8 million in retirement
      benefits and

     13,684 spouses from our prior audit who were eligible for $135.5 million in retirement
      benefits.

We are 90-percent confident the number of spouses eligible for higher retirement benefits ranged
from 22,005 to 30,339, and the additional payments ranged from $131.9 to $258.6 million (see
Appendix B).

This occurred because SSA did not (1) identify and notify spouses when they became eligible for
higher retirement benefits at age 70 or older or (2) apply the deemed filing provision or know
about the spouses’ eligibility for retirement benefits when they applied for spousal benefits.

Spouses Eligible for Higher Retirement Benefits
Of the 250 spouses in our sample, 61 (24.4 percent) were eligible for higher retirement benefits
at age 70 or older, and 17 (6.8 percent) should have received additional benefits from their first
month of entitlement. The remaining 172 (68.8 percent) were already receiving retirement
benefits or their spousal benefit amounts were higher than their retirement benefit amounts. The
following chart summarizes the results of our review.




6
    SSA, OIG, Payments to Spouses Eligible for Higher Retirement Benefits (A-09-08-18007), December 16, 2008.



Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                                                 2
                    Figure 1: Spouses Eligible for Higher Retirement Benefits



                          Based on Random Sample of 250 Beneficiaries

       Not Eligible for                                                    Eligible for Higher
       Higher Benefits                                                     Benefits At Age 70
          (68.8%)                                                           or Older (24.4%)




                                                                             Deemed Filing
                                                                             Provision Not
                                                                             Applied (6.8%)




SSA Did Not Notify Spouses at Age 70
Each year, SSA sends notices to widow(er)s who are eligible for higher retirement benefits based
on their own earnings. Most widow(er)s receive two notices—one when they attain FRA and
another when they attain age 70. SSA also sends follow-up notices to widow(er)s who are over
age 70 and have not been awarded retirement benefits in spite of previous notices. Although
SSA provides notices to widow(er)s, it does not provide notices to spouses who may be eligible
for higher retirement benefits based on their own earnings.

In 2009, SSA formed a workgroup that identified a population of 18,768 spouses who were
eligible for higher retirement benefits based on their own earnings at age 70. SSA also
developed a notification letter. However, according to SSA, it did not take further action
because of limited resources. As a result, these spouses did not receive the higher retirement
benefits for which they were eligible.

Our review disclosed that 61 of the 250 spouses in our sample were eligible for a higher monthly
retirement benefit because of their earnings and/or DRCs. Of these, 10 were eligible for
retirement benefits when they applied for spousal benefits and 51 were not. Although DRCs
may be earned between FRA and age 70, there is no additional benefit increase after age 70,
even if individuals delay taking benefits. Since these spouses had attained age 70, there was no
incentive to postpone applying for retirement benefits. As a result, the 61 spouses could have
received an additional $549,584 in retirement benefits at age 70 or older. This consisted of




Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                                  3
$163,207 for 29 spouses we identified during our current audit and $386,377 for 32 spouses we
identified during our prior audit. 7

For example, a beneficiary had been entitled to spousal benefits since February 2002. The
beneficiary had not received retirement benefits and earned 54 DRCs between FRA and age 70.
In January 2010, the beneficiary attained age 70, was eligible for a $755 monthly retirement
benefit, and was receiving a $379 monthly spousal benefit. Had SSA notified the beneficiary she
was eligible for a higher retirement benefit, once she applied for those benefits, she could have
received an additional $18,345 in benefits from January 2010 through July 2013.

SSA Did Not Apply the Deemed Filing Provision
SSA policy states that an application for any Title II benefit generally includes all Title II
benefits for which an applicant may be eligible. A claimant is deemed to have filed an
application for reduced retirement benefits and reduced spousal benefits if they were eligible for
both in the beneficiary’s first month of entitlement. It does not matter whether it was apparent
that eligibility for both benefits existed when the application was filed. Whenever SSA becomes
aware of a spouse’s eligibility for a retirement benefit, the deemed filing provision will be
invoked. SSA employees must retroactively award retirement benefits to the first month of
entitlement to spousal benefits. 8

SSA obtains spouses’ earnings records and must consider lag earnings to determine their
eligibility for retirement benefits. 9 Lag earnings are recent earnings not yet recorded on an
individual’s earnings record. SSA employees must also develop evidence of any lag earnings if
eligibility to retirement benefits depends on the lag earnings. 10

Our review disclosed that SSA did not apply the deemed filing provision for 17 of the
250 spouses in our sample. As a result, these spouses should have received an additional
$35,492 in retirement benefits from their first month of entitlement to spousal benefits. We
found that 11 of the 17 spouses were eligible for retirement benefits when they applied for
reduced spousal benefits, but their recent earnings had not yet been recorded on SSA’s records.
Of these, SSA did not develop lag earnings for seven spouses, had not obtained proof of earnings
for two spouses, and was unaware of recent earnings for two spouses. Also, SSA employees
overlooked 6 of the 17 spouses’ eligibility for retirement benefits when they applied for reduced
spousal benefits.




7
  Our prior audit included spouses over age 70 with sufficient earnings to be eligible for higher retirement benefits
as of May 2007. For our current audit, we selected spouses age 70 and older with sufficient earnings to be eligible
for higher retirement benefits from June 2007 to April 2012.
8
    SSA, POMS, GN 00204.004 (February 13, 2012) and GN 00204.020 (May 1, 2013).
9
    SSA, POMS, GN 00204.004.B (February 13, 2012) and GN 002040.004.E (April 19, 2013).
10
     SSA, POMS, RS 01404.005 (March 23, 2011).



Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                                                         4
For example, a beneficiary was entitled to reduced spousal benefits beginning in March 2002.
The beneficiary also had sufficient earnings to be eligible for reduced retirement benefits in
March 2002. However, the beneficiary’s 2001 earnings were not recorded on SSA’s records
until May 2002. SSA did not develop evidence of the 2001 earnings and was unaware of the
beneficiary’s eligibility for retirement benefits when she applied for reduced spousal benefits. In
her first month of entitlement, the beneficiary’s monthly spousal benefit was $415. However,
she was eligible for a higher monthly retirement benefit of $426 beginning in March 2002. As a
result, SSA underpaid the beneficiary $3,105 in retirement benefits from March 2002 through
July 2013.

CONCLUSIONS
SSA had not taken action to notify spousal beneficiaries of their eligibility to receive higher
retirement benefits. Since our 2008 audit, the number of spouses eligible for higher retirement
benefits has increased from 13,580 to 26,033. The average annual increase was 2,531 spouses. 11
In addition, the amount of higher retirement benefits they are eligible to receive has increased
from about $123.7 to an estimated $195.3 million (see Appendix B). In response to our prior
audit, SSA formed a workgroup, identified a population of 18,768 spouses eligible for higher
retirement benefits, and developed a notification letter. However, according to SSA, it did not
take further action because of limited resources.

In 2012, SSA identified and sent notices to 58,575 widow(er)s and, in May 2013, to
72,434 widow(er)s who may be eligible for higher retirement benefits. If SSA were to
notify spousal beneficiaries of their eligibility for higher retirement benefits, it would initially
identify about 26,000 beneficiaries. Thereafter, we estimate that SSA would identify about
2,500 spouses, annually, who would be eligible for higher retirement benefits.

RECOMMENDATIONS
We recommend that SSA:

1. Identify and notify spousal beneficiaries of their eligibility to receive higher retirement
   benefits at age 70.

2. Evaluate the feasibility of automating benefit increases for spouses eligible for higher
   retirement benefits at age 70.

3. Remind employees to (1) apply the deemed filing provision when individuals apply for
   reduced retirement or spousal benefits and are eligible for both benefits in their first month of
   entitlement and (2) review and develop lag earnings for spousal beneficiaries if eligibility for
   retirement benefits is dependent upon those earnings.



11
     26,033 - 13,580 = 12,453 spouses ÷ 4.92 years = 2,531 spouses per year.



Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                                        5
AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                          6
                                        APPENDICES




Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)
Appendix A – SCOPE AND METHODOLOGY
We obtained from the Social Security Administration’s (SSA) Master Beneficiary Record
(MBR) a data extract of spousal beneficiaries in current pay status who were age 70 or older as
of April 2012. We obtained the earnings records from the Master Earnings File (MEF) for these
spouses. Using this information, we identified a population of 83,436 spouses with sufficient
earnings to be eligible for retirement benefits. From this population, we selected a random
sample of 250 spouses for review.

To accomplish our objective, we

   reviewed the applicable sections of the Social Security Act, U.S. Code, and SSA’s Program
    Operations Manual System;

   interviewed SSA employees from the Offices of Operations and Retirement and Disability
    Policy;

   reviewed queries from SSA’s MBR, Informational/Certified Earnings Records, Interactive
    Computation Facility, Online Retrieval System, and Modernized Claims System; and

   compared the amount of retirement benefits payable to the amount of spousal benefits paid
    for beneficiaries eligible for higher benefits from age 70 to December 2012.

We determined the computer-processed data from the MBR and MEF were sufficiently reliable
for our intended purpose. We tested the data to determine their completeness and accuracy.
These tests allowed us to assess the reliability of the data and achieve our audit objective.

We conducted audit work in Richmond, California, and Baltimore, Maryland, between
February and August 2013. The entity audited was the Office of Operations under the Office of
the Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                               A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
From the Social Security Administration’s (SSA) Master Beneficiary Record, we obtained a
data extract of spousal beneficiaries in current payment status who were age 70 or older as of
April 2012. We obtained the earnings records from the Master Earnings File and identified a
population of 83,436 spouses with sufficient earnings to be eligible for retirement benefits.
From this population, we selected a random sample of 250 spouses for review. Using SSA’s
automated systems, we reviewed the beneficiaries’ earnings, delayed retirement credits, and
monthly benefit amounts to determine whether they were eligible for higher retirement benefits.

We found that 78 spouses were eligible for $585,076 in higher retirement benefits. Of these,
37 spouses in our current audit were eligible for $179,046 in retirement benefits, and 41 spouses
from our prior audit were eligible for $406,030 in retirement benefits. 1

This occurred because SSA did not (1) identify and notify spouses when they became eligible for
higher retirement benefits at age 70 or older and (2) apply the deemed filing provision or was
unaware of the spouses’ eligibility for retirement benefits when they applied for spousal benefits.

Projecting our sample results to the population of 83,436 spouses, we estimate that
26,033 spouses were eligible for about $195.3 million in higher retirement benefits. Of these,
12,349 spouses in our current audit were eligible for about $59.8 million in retirement benefits,
and 13,684 spouses from our prior audit were eligible for about $135.5 million in retirement
benefits.

The following tables provide the details of our sample results and statistical projections.

                                 Table B–1: Population and Sample Size
                              Description                                Spouses
                             Population Size                              83,436
                              Sample Size                                    250




1
 Our prior audit included spouses over age 70 with sufficient earnings to be eligible for higher retirement benefits
as of May 2007. For our current audit, we selected spouses age 70 or older with sufficient earnings to be eligible for
higher retirement benefits from June 2007 to April 2012.



Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                                                   B-1
                   Table B–2: Spouses Eligible for Higher Retirement Benefits
          Description                                 Spouses                 Retirement Benefits
         Sample Results                                    78                        $585,076
         Point Estimate                                26,033                    $195,265,537
    Projection – Lower Limit                           22,005                    $131,899,624
    Projection – Upper Limit                           30,339                    $258,631,451
Note:   All statistical projections are at the 90-percent confidence level.

        Table B–3: Spouses Eligible for Higher Retirement Benefits – Current Audit
          Description                                 Spouses                 Retirement Benefits
         Sample Results                                    37                         $179,046
         Point Estimate                                12,349                      $59,755,628
    Projection – Lower Limit                            9,377                      $33,201,523
    Projection – Upper Limit                           15,852                      $86,309,734
Note:   All statistical projections are at the 90-percent confidence level.

          Table B–4: Spouses Eligible for Higher Retirement Benefits – Prior Audit
          Description                                 Spouses                 Retirement Benefits
         Sample Results                                    41                         $406,030
         Point Estimate                                13,684                    $135,509,909
    Projection – Lower Limit                           10,569                      $76,460,163
    Projection – Upper Limit                           17,305                    $194,559,656
Note:   All statistical projections are at the 90-percent confidence level.




Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                                     B-2
           Appendix C – AGENCY COMMENTS




                                           SOCIAL SECURITY

MEMORANDUM

Date:      February 10, 2014                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Spouses Eligible for Higher Retirement Benefits”
           (A-09-12-21292)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                               C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SPOUSES ELIGIBLE FOR HIGHER RETIREMENT BENEFITS”
(A-09-12-21292)


Recommendation 1

Identify and notify spousal beneficiaries of their eligibility to receive higher retirement benefits
at age 70.

Response

We agree. In fiscal year (FY) 2014, we will initiate a clean-up activity to identify those spousal
beneficiaries who are eligible to receive higher retirement and notify them through a written
notice.

To enable us to identify and notify these type of beneficiaries in the future, we will propose a
system enhancement for inclusion in our information technology (IT) development projects for
FY 2015. We envision automating this workload to mirror the process currently in place to
notify widow(er)s of potential entitlement to higher benefits.

Recommendation 2

Evaluate the feasibility of automating benefit increases for spouses eligible for higher retirement
benefits at age 70.

Response

We agree. In FY 2015, we will evaluate the feasibility of automating benefit increases for
spouses eligible for higher retirement benefits at age 70.

Recommendation 3

Remind employees to (1) apply the deemed filing provision when individuals apply for reduced
retirement or spousal benefits and are eligible for both benefits in their first month of entitlement
and (2) review and develop lag earnings for spousal beneficiaries if eligibility for retirement
benefits is dependent upon those earnings.

Response

We agree. By the end of FY 2014, we will remind employees of our policies concerning these
issues.




Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)                                   C-2
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Jack H. Trudel, Audit Manager

Vickie Choy, Senior Auditor

Wilfred Wong, Audit Data Specialist

Alla Resman, IT Specialist




Spouses Eligible for Higher Retirement Benefits (A-09-12-21292)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
